SEPTEMBER 26, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




          NASA’S COMPLIANCE WITH EXECUTIVE
          ORDER 13526: CLASSIFIED NATIONAL
                SECURITY INFORMATION




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-023 (ASSIGNMENT NO. A-13-017-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CIGIE               Council of the Inspectors General on Integrity and Efficiency
CFR                 Code of Federal Regulations
DOD                 Department of Defense
FY                  Fiscal Year
NPR                 NASA Procedural Requirements
OIG                 Office of Inspector General
OCA                 Original Classification Authority
OPS                 Office of Protective Services



                                                                        REPORT NO. IG-13-023
SEPTEMBER 26, 2013




                                                                                            OVERVIEW

      NASA’S COMPLIANCE WITH EXECUTIVE ORDER 13526: CLASSIFIED
                   NATIONAL SECURITY INFORMATION
                                                                                              The Issue

  In December 2009, the President signed Executive Order 13526, “Classified National
  Security Information” (Order), to reform the security classification and declassification
  processes.1 The Order was intended to produce greater openness and transparency in the
  Government’s classification and declassification programs while maintaining the
  Government’s legitimate interests to protect certain information from unauthorized
  disclosure.

  Public Law 111-258, “Reducing Over-Classification Act” of 2010, requires the Inspector
  General of each Federal department or agency with an employee who is authorized to
  make original classifications to assess agency compliance with the Order.2 In response to
  the Act, we (1) assessed whether NASA has adopted, followed, and effectively
  administered classification policies, procedures, rules, and regulations and (2) identified
  policies, procedures, rules, regulations, or management practices that may be contributing
  to misclassification of material at the Agency. In accordance with the Act, we will
  conduct a second evaluation by September 30, 2016, to review the actions NASA takes in
  response to this review. Details on the scope and methodology for our review can be
  found in Appendix A.

                                                                                                  Results

  NASA has adopted classification policies and issued regulations that comply with
  security classification reform requirements. Specifically, NASA has established
  procedural requirements for the proper implementation and management of a uniform
  system for classifying, accounting for, safeguarding, and declassifying national security
  information under its control. However, while the Agency’s procedures meet Federal
  requirements, its implementing directive does not require Agency personnel with
  classification authority to receive all necessary training. Additionally, we found
  instances in which Agency personnel were not consistently following these NASA
  policies. Specifically, we found classified documents that were improperly marked,

  1
      Classified national security information or classified information means information that has been
      determined pursuant to Executive Order 13526 or any predecessor order to require protection against
      unauthorized disclosure. Classification means the act or process by which information is determined to
      be classified information. Declassification means the authorized change in the status of information from
      classified information to unclassified information.
  2
      “Reducing Over-Classification Act” of 2010, Public Law 111-258, 111th Congress (October 7, 2010).



REPORT NO. IG-13-023
                                                                                       OVERVIEW



     training requirements that were not met, and self-inspections that were not fully
     implemented. Although these deficiencies were relatively minor in nature, failure to
     comply with these requirements increases the risk that personnel may inadvertently
     misclassify material.

     Management Action

     We recommended that the NASA Assistant Administrator for Protective Services revise
     NASA’s classification implementing policy so it is consistent with the Order. In
     addition, we recommended the Assistant Administrator ensure that persons with
     classification authority receive all required training and the Agency’s self-inspection
     program identifies and mitigates future occurrences of marking and training deficiencies.

     In response to our draft report, the Assistant Administrator for Protective Services
     concurred with our recommendations. Specifically, the Office of Protective Services
     (OPS) agreed to revise NASA policy to clarify that individuals who apply derivative
     classification markings must receive the required training prior to classifying any
     information. Additionally, the Assistant Administrator will issue an interim policy to all
     Centers containing the revised mandatory requirements. Further, to improve the
     Agency’s self-inspection program OPS will formalize criteria for annual Center
     self-inspections, provide self-inspection sheets for tracking purposes, and measure the
     Centers’ progress as part of the Integrated Security Functional Reviews. We consider the
     proposed actions to be responsive and will close the recommendations upon completion
     and verification of the corrective actions. Management’s full response is reprinted in
     Appendix B.




ii                                                                         REPORT NO. IG-13-023
SEPTEMBER 26, 2013




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

  RESULTS
      NASA’s Policies Comply with Requirements of Executive
      Order 13526 ________________________________________ 4
      NASA Does Not Consistently Follow Federal Requirements for
      Classifying National Security Information __________________ 6

  APPENDIX A
      Scope and Methodology _______________________________ 11
      Review of Internal Controls ____________________________ 12
      Prior Coverage ______________________________________ 12

  APPENDIX B
      Management Comments ______________________________ 13

  APPENDIX C
      Report Distribution ___________________________________ 15




REPORT NO. IG-13-023
SEPTEMBER 26, 2013




                                                                                     INTRODUCTION


Background

  The over-classification of information can interfere with accurate, actionable, and timely
  information sharing; increase the cost of information security; and needlessly limit
  stakeholder and public access to information. Executive Order 13526, “Classified
  National Security Information” (Order), was intended to ensure greater openness and
  transparency in Federal classification and declassification programs while maintaining
  the legitimate interests of the United States in protecting certain information from
  unauthorized disclosure. In June 2010, the Information Security Oversight Office
  (Oversight Office) published guidance to assist agencies in implementing the Order and
  to provide direction related to classifying, downgrading, declassifying, and safeguarding
  national security information.3 This guidance included rules for:

           classification, declassification, and marking principles;

           safeguarding classified information;

           agency security education and training programs;

           agency self-inspection programs; and

           reporting requirements.4

  Classified information must be marked appropriately to indicate its status. The three
  classification levels are:

           Top Secret – as determined by the original classification authority, the
            unauthorized disclosure of such information could reasonably be expected to
            cause exceptionally grave damage to national security.

           Secret – as determined by the original classification authority, the unauthorized
            disclosure of such information could reasonably be expected to cause serious
            damage to national security.


  3
      The Oversight Office, a component of the National Archives and Records Administration, is responsible
      to the President for policy and oversight of the Government-wide security classification system and the
      National Industrial Security Program. Specifically, the Oversight Office’s Classification Management
      Staff develops security classification policies for classifying, declassifying, and safeguarding national
      security information.
  4
      32 Code of Federal Regulations (CFR) Parts 2001 and 2003, “Classified National Security Information:
      Final Rule” (2010).



REPORT NO. IG-13-023                                                                                              1
                                                                                                       INTRODUCTION



              Confidential – as determined by the original classification authority, the
               unauthorized disclosure of such information could reasonably be expected to
               cause damage to national security.

    Over-Classification. The Order defines over-classification as classification of
    information that does not meet one or more of the following standards:

              an original classification authority (OCA) has classified the information;5

              the information is owned by, produced by or for, or under the control of the U.S.
               Government;

              the information falls within one or more of seven categories of information;6 and

              the original classification authority determines that the unauthorized disclosure of
               the information reasonably could be expected to result in damage to national
               security and the original classification authority is able to identify or describe the
               damage.

    Original and Derivative Classification Actions. Information may be classified either
    originally or derivatively. Original classification means an initial determination that
    information requires, in the interest of the national security, protection against
    unauthorized disclosure. Derivative classification means incorporating, paraphrasing,
    restating, or generating in new form information that is already classified, and marking
    the newly developed material consistent with the classification markings that apply to the
    source information. Derivative classification includes the classification of information
    based on classification guidance. The duplication or reproduction of existing classified
    information is not derivative classification.

    Persons who reproduce, extract, or summarize classified information or who apply
    classification markings derived from source material or as directed by a classification
    guide, need not possess original classification authority. Information may be derivatively
    classified from a source document or documents or based on a classification guide.7

    5
        Original classification authority means an individual authorized in writing by the President, the Vice
        President, or by agency heads or other officials designated by the President, to classify information in the
        first instance.
    6
        These categories are: (1) military plans, weapons systems, or operations; (2) foreign government
        information; (3) intelligence activities; (4) foreign relations or foreign activities of the United States;
        (5) scientific, technological, or economic matters relating to the national security; (6) U.S. Government
        programs for safeguarding nuclear materials or facilities; (7) vulnerabilities or capabilities of systems,
        installations, infrastructures, projects, plans, or protection services relating to the national security; or
        (8) the development, production, or use of weapons of mass destruction.
    7
        Source document means an existing document containing classified information that is incorporated,
        paraphrased, restated, or generated in new form into a new document. Classification guide means a
        documentary form of classification guidance issued by an original classification authority that identifies
        the elements of information regarding a specific subject that must be classified and establishes the level
        and duration of classification for each such element.


2                                                                                             REPORT NO. IG-13-023
INTRODUCTION



Objectives

  Pursuant to the “Reducing Over-Classification Act” of 2010, the NASA Office of
  Inspector (OIG) evaluated NASA’s system for classifying, safeguarding, and
  declassifying national security information. Our objectives were to:

         assess whether applicable classification policies, procedures, rules, and
          regulations have been adopted, followed, and effectively administered within
          NASA; and;

         identify policies, procedures, rules, regulations, or management practices that may
          be contributing to persistent misclassification of material within NASA.
  See Appendix A for details of the evaluation’s scope and methodology, our review of
  internal controls, and a list of prior coverage.




REPORT NO. IG-13-023                                                                            3
                                                                                     RESULTS




                     NASA’S POLICIES COMPLY WITH REQUIREMENTS
                                     OF EXECUTIVE ORDER 13526
           NASA has adopted classification policies and issued regulations that comply with
           the requirements of Federal security classification reform requirements.
           Specifically, NASA Procedural Requirements (NPR) 1600.2, “NASA Classified
           National Security Information,” establishes Agency procedures for the proper
           implementation and management of a uniform system for classifying, accounting,
           safeguarding, and declassifying national security information generated by or in
           the possession of NASA. Based on our review of NPR 1600.2, we concluded that
           NASA complied with Executive Order 13526 and the Oversight Office’s
           implementing directive, 32 CFR Part 2001. The Order sets forth criteria agencies
           must meet to comply, and, as illustrated in Table 1, NASA met all applicable
           criteria.

                                    Table 1: Compliance Summary
                                                                    Criteria Met?
                     Criteria for Compliance

     Does the NPR cite Executive Order 13526 and 32 CFR,
                                                                        Yes
     Part 2001 for authorizing NASA Classified National
     Security Information Program?
     Does the NPR require the senior agency official to direct          Yes
     and administer the program?
     Does the NPR cite the classification standards?                    Yes

     Are the classification levels provided and only the three          Yes
     levels authorized for use?
     Does the NPR emphasize the 25-year automatic
                                                                        Yes
     declassification and downgrading of NASA Classified
     National Security Information?
     Does the NPR require the agency to establish a secure
     capability to receive information, allegations, or                 Yes
     complaints regarding over-classification or incorrect
     classification within the agency?
     Does the agency submit annual Standard Form 311 to                 Yes
     Information Security Oversight Office?
    Source: NASA OIG’s review of NPR 1600.2




4                                                                       REPORT NO. IG-13-023
RESULTS



   The Assistant Administrator for Protective Services is the Senior Agency Official
   responsible for providing direction, oversight, and implementation guidance for NASA’s
   information security program.8 Further, individual Center Directors are responsible,
   through their respective Center Chief of Security, for ensuring proper planning and
   implementation of the Order and managing classified information and material under the
   jurisdiction and custody of their respective Centers.

   NASA’s Classification Activity. As required by the Order and the implementing
   directive, NASA submits annual reports on original and derivative classification
   decisions made by its personnel, declassification activities, and any classification guides
   it creates or uses.9 Four positions at NASA possess original classification authority: the
   Administrator, Deputy Administrator, Associate Administrator, and Assistant
   Administrator for Protective Services.

   For fiscal years (FY) 2010 through 2012, NASA reported making no original
   classification decisions. However, during that period, 59,284 derivative classification
   decisions were made Agency-wide – 390 Top Secret, 58,795 Secret, and
   99 Confidential.10 NASA Office of Protective Services (OPS) officials told us that the
   majority of the 59,284 classification decisions made across the Agency for FYs 2010,
   2011, and 2012 related to Sensitive Compartmented Information or Special Access
   Program documents.11 In addition, the Agency reported declassifying 938 pages of
   information as a result of mandatory declassification reviews, 40,872 pages by automatic
   declassification, and 200 pages as a result of systematic declassification reviews.12




   8
        Aeronautics and Space Information Security Program, 14 CFR Part 1203-Information Security Program,
        Executive Order 13526.
   9
        Agency Security Classification Management Program Data (Standard Form 311).
   10
        Approximately 98 percent of these decisions were made by personnel assigned to NASA Headquarters.
   11
        Sensitive Compartmented Information is a classification level for information, generally
        intelligence-related, requiring security clearances and physical or procedural security measures above
        those established for collateral classified information or Special Access Program information. Special
        Access Program means any program established and approved under Executive Order Number 13526
        that imposes need-to-know or access controls beyond those normally required for access to collateral Top
        Secret, Secret, or Confidential information.
   12
        Mandatory declassification review means the review for declassification of classified information in
        response to a request for declassification that meets the requirements under section 3.5 of the Order.
        Automatic declassification means the declassification of information based solely upon the occurrence of
        a specific date or event as determined by the OCA or the expiration of a maximum timeframe for
        duration of classification established under the Order. Systematic declassification review means the
        review for declassification of classified information contained in records that have been determined by
        the Archivist (National Archives and Records Administration) to have permanent historical value in
        accordance with Title 44, U.S. Code.



REPORT NO. IG-13-023                                                                                               5
                                                                                       RESULTS



                                                                                                -
                                NASA DOES NOT CONSISTENTLY FOLLOW
                               FEDERAL REQUIREMENTS FOR CLASSIFYING
                                     NATIONAL SECURITY INFORMATION

            Although NASA’s policies and procedures for managing national security
            information comply with Federal requirements, we found instances where Agency
            personnel did not consistently follow these policies. Specifically, we found
            classified documents that were improperly marked, training requirements for
            classifiers that were not met, and self-inspections that were not fully
            implemented. Although these deficiencies were relatively minor in nature, failure
            to comply with them increases the risk that personnel may inadvertently
            misclassify material.

Classified Documents Improperly Marked

    As part of our review, we examined the classification markings on 16 documents NASA
    personnel derivatively classified and found several minor marking deficiencies. Federal
    requirements dictate that derivative classification markings shall:

       include the date of origin of the document in a manner that is immediately apparent;

       identify the derivative classifier;

       eliminate the use of the exemption markings on documents created on or after
        September 22, 2003, and declassify those documents 25 years from date of document
        creation; and

       include a listing of the source materials on, or attached to, each derivatively
        classified document when a document is classified derivatively on the basis of more
        than one source – “Derived From: Multiple Sources.”

    For the 16 documents we examined, we found the following deficiencies:

           2 documents had no date of origin;

           3 documents did not identify the derivative classifier;




6                                                                        REPORT NO. IG-13-023
RESULTS



            12 documents, created after September 22, 2003, contained invalid exemption
             markings on the “Declassify On” date line; and13

            1 document –marked “Derived From: Multiple Sources” – did not include a
             listing of the source materials.

Training Requirements Not Fully Met

  Federal regulations require that all persons with OCA must receive training on proper
  classification prior to originally classifying information and at least once per year
  thereafter. Likewise, persons who apply derivative classification markings must receive
  training in the proper application of the derivative classification principles before
  derivatively classifying any information and at least once every 2 years thereafter. The
  regulations state that, at a minimum, the training shall cover the principles of derivative
  classification, classification levels, duration of classification, identification and markings,
  classification prohibitions and limitations, sanctions, classification challenges, security
  classification guides, and information sharing.

  During 2012, three of the four NASA OCAs received in-person training. The Deputy
  Administrator was unavailable for the training, but did not perform any original
  classification decisions during that period.

  We spoke with two NASA employees who had derivatively classified documents during
  2012. We found that while both individuals completed the mandatory annual security
  education training refresher, only one had received specific derivative classification
  training. In addition, neither individual had received the required bi-annual derivative
  classification training. Furthermore, we found that NASA policy does not stipulate that
  employees receive training on derivative classification principles before they classify any
  information as required by the implementing directive for the Order, the Oversight Office
  Directive Number 1 (32 CFR Part 2001, “Classified National Security Information”).14

Self-Inspection Requirements Not Fully Implemented

  We also found that NASA has not fully implemented Federal self-inspection
  requirements. Federal regulations require that senior agency officials establish and
  maintain an ongoing self-inspection program that includes regular reviews of
  13
       NASA personnel acknowledged the use of specific exemption categories is no longer a valid
       declassification marking on documents created on or after September 22, 2003. NASA personnel
       explained that the “X1” exemption category is a default system function designed by the originators of
       the NASA investigative management system currently in use to comply with an earlier executive order.
       In response to our inquiry regarding the use of the “X1” markings, NASA personnel stated that the
       system administrators for the current investigative management system have been directed to take
       immediate action to remove the default “X1” markings from the system and comply with current
       guidance in the implementing directive.
  14
       14 CFR Part 1203.500(d) – Information Security Program and NPR 1600.2, Chapter 2.3.2 require
       individuals who apply derivative classification markings receive training, at least once every 2 years, in
       the proper application of the derivative classification principles of Executive Order No. 13526, but unlike
       32 CFR Part 2001.70(d)(4) do not require training prior to derivatively classifying information.


REPORT NO. IG-13-023                                                                                                 7
                                                                                                          RESULTS



    representative samples of the Agency’s original and derivative classification actions. The
    self-inspections should evaluate adherence to the principles and requirements of the
    Federal regulations and the effectiveness of agency programs covering original
    classification, derivative classification, declassification, safeguarding, security violations,
    security education and training, and management oversight. The self-inspections must be
    regular, ongoing, and occur at least annually.15

    Further, NASA policy requires Center Directors, through their Chiefs of Security, to
    conduct periodic reviews of NASA organizational units involved with original and
    derivative classification work to ensure compliance with Federal regulations.16
    Specifically, each Center Protective Services Office is required to conduct audits of select
    Center organizations on a yearly basis to determine if they are complying with NASA
    policy.

    However, based on summary data provided by OPS, 6 of 12 NASA locations did not
    report conducting any audits of select organizations during FY 2010 through 2012.17
    Moreover, although OPS conducts functional reviews every 3 years to provide oversight
    of the Centers’ classification activities, we found that the 2012 review did not examine
    important aspects of NASA’s classification program, including whether classified
    documents were properly marked or whether classifiers were properly trained.

Conclusion

    Although NASA has sound policies in place to manage its classified material, improved
    compliance with its policies regarding marking documents, training classification
    officials, and performing self-inspections would better position the Agency to ensure that
    classified national security information is managed in accordance with Executive Order
    13526 requirements. This, in turn, would better ensure that NASA is acting in
    accordance with Federal guidelines that seek greater openness and transparency in
    agency classification and declassification programs.




    15
         32 CFR Part 2001.60(a)(b)(c)(d).
    16
         Center Chief of Security means the senior Center official responsible for management of the Center’s
         security program.
    17
         Kennedy Space Center, Glenn Research Center, Langley Research Center, Dryden Flight Research
         Center, Johnson Space Center, and Marshall Space Flight Center provided reports of annual
         audits. Conversely, Goddard Space Flight Center, Stennis Space Center, White Sands Test Facility,
         NASA Headquarters, Jet Propulsion Laboratory and Ames Research Center did not provide any reports
         of annual audits of select organizations.



8                                                                                        REPORT NO. IG-13-023
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

  In order to ensure that NASA complies with security classification requirements, we
  recommended that the NASA Assistant Administrator for Protective Services take the
  following actions:

  Recommendation 1. Revise 14 CFR 1203 and NPR 1600.2 to require that persons who
  apply derivative classification markings receive training in the proper application of the
  derivative classification principles prior to classifying any information.

      Management’s Response. The Assistant Administrator concurred, agreeing to
      revise 14 CFR 1203 and NPR 1600.2 to clarify that individuals who apply derivative
      classification markings must receive the required training prior to classifying any
      information.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.

  Recommendation 2. Coordinate with Center Chiefs of Protective Services to ensure that
  persons who apply derivative classification markings receive training before classifying
  any information and refresher training at least every 2 years thereafter.

      Management’s Response. The Assistant Administrator concurred, stating that OPS
      will issue an interim policy letter to all Centers and revise NPR 1600.2 to clarify that
      individuals must complete training prior to classifying any information as well as (at
      a minimum) every 2 years thereafter.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.

  Recommendation 3. Ensure that the Agency self-inspection program includes regular
  reviews of NASA’s derivative classification actions sufficient to identify and mitigate
  classification marking and training deficiencies.

      Management’s Response. The Assistant Administrator concurred, stating that OPS
      will formalize criteria for annual Center self-inspections, provide self-inspection
      sheets for tracking purposes, and measure the Centers’ progress as part of the
      Integrated Security Functional Reviews.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.



REPORT NO. IG-13-023                                                                             9
APPENDIXES




                                                                                     APPENDIX A


Scope and Methodology

  We performed this audit from July 2013 through September 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Public Law 111-258, “Reducing Over-Classification Act” of 2010, requires Inspectors
  General coordinate with each other and with the Oversight Office to ensure that
  evaluations of principles, policies, and procedures for NASA Classified National Security
  Information follow a consistent methodology, as appropriate, that allows for cross-agency
  comparisons. Accordingly, we contacted the Oversight Office and requested copies of
  Inspectors General reports it had received. Additionally, we reviewed the audit reports
  issued by two Inspectors General.

  At the request of the Council of the Inspectors General on Integrity and Efficiency
  (CIGIE) Inspection and Evaluation Committee and with the approval of the CIGIE
  Executive Council, the Department of Defense (DOD) OIG led a working group
  consisting of other OIGs in developing detailed guidance for OIGs to use, where
  appropriate, in evaluating their agencies processes for following Executive Order 13526,
  “Classified National Security Information,” and its implementing directive, 32 CFR Part
  2001, “Classified National Security Information.”18 In part, we used the DOD evaluation
  guide to interview with the Assistant Administrator for Protective Services, one of four
  NASA original classification authorities; interview two derivative classifiers; and
  evaluate the extent that NPR 1600.2 adequately prescribes policy and procedures that, if
  effectively followed, meet requirements of the Order and its implementing directive. We
  also requested supporting documentation, to substantiate the completion of required
  derivative classification training.

  To identify the number of original and derivative classification decisions and
  declassification actions made Agency-wide, we reviewed NASA’s Standard Form 311
  “Agency Security Classification Management Program Data,” that had been submitted to
  the Oversight Office for FYs 2010, 2011, and 2012.

  NASA had no original classifications during FYs 2010, 2011, and 2012. To identify the
  propriety of classification markings, we reviewed 16 derivatively classified documents.

  18
       On behalf of CIGIE, DOD OIG issued A Standard User’s Guide for Inspectors General Conducting
       Evaluations Under Public Law 111-258, the “Reducing Over-Classification Act,” on January 22, 2013.



REPORT NO. IG-13-023                                                                                        11
                                                                                          APPENDIX A



     We reviewed the Agency-wide self-inspection reports submitted to the Oversight Office
     for FYs 2011 and 2012. Also, we requested copies of NASA Headquarters Center
     inspection reports for FYs 2010, 2011, and 2012 that had been submitted to NASA OPS.

     Use of Computer-Processed Data. NASA Counterintelligence Program personnel
     printed and provided hard copies of 12 documents that were maintained in their
     electronic investigative database so that we could examine the propriety of the
     documents’ classification markings. We did not verify the hard copy documents to the
     source documents, but considered the documents that we examined reliable for the
     purposes of the review.

Review of Internal Controls

     We reviewed 14 CFR 1203 and NPR 1600.2 to determine if NASA’s prescribed policy
     and procedures are consistent with the requirements of the Order and the implementing
     directive. We interviewed an original and two derivative classification authorities and
     determined whether they had adequate knowledge and were following the NASA
     Classified National Security Information requirements of NPR 1600.2, the Order, and the
     implementing directive. We reviewed classified documents to determine if they were
     properly marked and being appropriately declassified. Also, we determined if NASA
     personnel that classified documents were completing required training. We found that
     NASA needs to improve some internal controls as discussed in the body of this audit
     report.

Prior Coverage

     During the last 5 years, the OIGs of the Department of State and the Broadcasting Board
     of Governors and the Department of Health and Human Services have issued three
     reports of particular relevance to the subject of this report. Unrestricted reports can be
     accessed over the Internet at http://oig.state.gov/latest/ and http://oig.hhs.gov/oei/reports/.

     United States Department of State and the Broadcasting Board of Governors OIG

     “Evaluation of Department of State Implementation of Executive Order 13526, Classified
     National Security Information” (AUD-SI-13-22, March 2013)

     Department of Health and Human Services OIG

     “HHS Adopted, Administered, and Generally Followed Classified Information Policies”
     (OEI-07-12-00400, May 2013).

     “Originally and Derivatively Classified Documents Met Most Federal Requirements”
     (OEI-07-12-00401, May 2013).




12                                                                             REPORT NO. IG-13-023
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-023                         13
              APPENDIX B




14   REPORT NO. IG-13-023
APPENDIX C




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Associate Administrator
  Chief of Staff
  Assistant Administrator for Protective Services
  NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management
  National Archives and Records Administration
         Director, Information Security Oversight Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  Senate Select Committee on Intelligence
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Homeland Security
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
  House Permanent Select Committee on Intelligence
     Subcommittee on Space




REPORT NO. IG-13-023                                                       15
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Kenneth Sidney, Project Manager
   Ellis Lee, Lead Auditor
   Gene Bauer, Auditor
   Cedric Campbell, Associate Counsel to the Inspector General




REPORT NO. IG-13-023                                             17
                                                                                 SEPTEMBER 26, 2013
                                                                        REPORT No. IG-13-023




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
